USCA11 Case: 19-12871

Date Filed: 09/29/2020

Page: 1 of 3

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-12871
Non-Argument Calendar

D.C. Docket No. l:19-cv-00149-TFM-B
EMOGENE R. BROWN,
Plaintiff-Appellant,
versus
DR. LLYAS SHALKH,
D efendant-Appellee.

Appeal from the United States District Court
for the Southern District of Alabama

(September 29, 2020)
Before WILLIAM PRYOR, Chief Judge, ROSENBAUM and ANDERSON,
Circuit Judges.
PER CURIAM:
Emogene Brown appeals pro se the sua sponte dismissal without prejudice
of her second amended complaint against Dr. Liyas Shaikh and her postjudgment

USCA11 Case: 19-12871

Date Filed: 09/29/2020

Page: 2 of 3

motion for pain and suffering. The district court dismissed Brown’s complaint and
her motion for lack of subject-matter jurisdiction. Fed. R. Civ. P. 12(h)(3). We
affirm the dismissal of Brown’s motion, and we dismiss for lack of jurisdiction the
part of her appeal challenging the dismissal of her second amended complaint.
We are obligated sua sponte to inquire into our jurisdiction whenever it may
be lacking. Trichell v. Midland Credit Mgmt., Inc., 964 F.3d 990, 996 (11th Cir.
2020). We review de novo the dismissal of a complaint for lack of subject-matter
jurisdiction. Dixon v. Hodges, 887 F.3d 1235, 1237 (11th Cir. 2018). “[Ajlthough
we . . . give liberal construction to the pleadings of pro se litigants, we nevertheless
. . . require[] them to conform to procedural rules.” Albra v. Advan, Inc., 490 F.3d
826, 829 (11th Cir. 2007) (internal quotation marks omitted).
We lack jurisdiction to review the dismissal of Brown’s second amended
complaint because she failed to timely appeal the ruling. An appellant must file a
written notice of appeal in a civil case “within 30 days after entry of the judgment
or order appealed from.” Fed. R. App. P. 4(a)(1)(A). “[Tjimely filing of a notice of
appeal is ‘mandatory and jurisdictional.Advanced Estimating Sys., Inc. v. Riney,
77 F.3d 1322, 1323 (11th Cir. 1996) (quoting Griggs v. Provident Consumer Disc.
Co., 459 U.S. 56, 61 (1982)). After the district court dismissed Brown’s second
amended complaint on June 17, 2019, she waited 39 days, until July 26, 2019, to
file her notice of appeal. Brown did not seek to extend the deadline. Her
2

USCA11 Case: 19-12871

Date Filed: 09/29/2020

Page: 3 of 3

postjudgment motion for pain and suffering does not mention her second amended
complaint, much less request an extension of time to appeal its dismissal. See Fed.
R. Civ. P. 4(a)(5). And Brown’s motion, in which she requests compensation
because the doctor “worked on [her] arm” instead of treating her “neck injury
[that] happened] 20 year[s] ago,” is not a postjudgment motion that tolls the 30day deadline. See Fed. R. App. P. 4(a)(4)(A). We dismiss the part of Brown’s
appeal that challenges the dismissal of her second amended complaint.
The district court correctly dismissed Brown’s postjudgment motion for lack
of jurisdiction. As the district court explained in its orders instructing Brown to
amend her original and amended complaints, she had to allege facts establishing
that her civil action either “ar[ose] under the Constitution, laws, or treaties of the
United States,” 28 U.S.C. § 1331, or involved “citizens of different States” and an
amount in controversy that exceeded $75,000, id. § 1332(a)(1). Brown’s action for
medical malpractice does not involve a federal question, see id. § 1331, and her
allegation that she and the doctor reside in Mobile, Alabama, defeats jurisdiction
based on diversity of citizenship, see id. § 1332.
We AFFIRM the dismissal of Brown’s second amended complaint.

3

USCA11 Case: 19-12871

Date Filed: 09/29/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Clerk of Court

September 29, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-12871 -GG
Case Style: Emogene Brown v. Liyas Shaikh
District Court Docket No: 1:19-cv-00149-TFM-B
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF") system, unless
exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF system by registering for an
account at www.pacer.gov. Information and training materials related to electronic filing, are available at
www.call.uscourts.gov. Enclosed is a copy of the court's decision filed today in this appeal. Judgment has this day been
entered pursuant to FRAP 36. The court's mandate will issue at a later date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for rehearing en
banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate filings, a petition for rehearing
or for rehearing en banc is timely only if received in the clerk's office within the time specified in the rules. Costs are governed
by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content of a motion for attorney's fees and an objection thereto is
governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list of all
persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.1-1. In addition, a
copy of the opinion sought to be reheard must be included in any petition for rehearing or petition for rehearing en banc. See
11th Cir. R.35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time spent on the
appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of a petition for writ of
certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404) 335-6167 or
cja_evoucher@cal 1.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
Pursuant to Fed.RApp.P. 39, costs taxed against appellant.
Please use the most recent version of the Bill of Costs form available on the court's website at www.cal 1 .uscourts.gov.
For questions concerning the issuance of the decision of this court, please call the number referenced in the signature block
below. For all other questions, please call Joseph Caruso. GG at (4041 335-6177.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Jeff R. Patch
Phone #: 404-335-6151
OPIN-1A Issuance of Opinion With Costs

USCA11 Case: 19-12871

Date Filed: 09/29/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
No. 19-12871
District Court Docket No.
1:19-cv-00149-TFM-B
EMOGENE R. BROWN.
Plaintiff - Appellant,
versus
DR. LLYAS SHALKH,
Defendant - Appellee.

Appeal from the United States District Court for the
Southern District of Alabama
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: September 29, 2020
For the Court: DAVID J. SMITH, Clerk of Court
By: Jeff R. Patch

Case l:19-cv-00149-TFM-B Document 11 Filed 06/18/19 Page 1 of 1

PagelD #: 90

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
EMOGENE R. BROWN,
Plaintiff,
CIVIL ACTION NO. l:19-cv-149-TFM-B

vs.
DR. LLYAS SHALKH,
Defendant.

MEMORANDUM OPINION AND ORDER
On May 14, 2019, the Magistrate Judge entered a Report and Recommendation (Doc. 10)
to which no objections have been filed. After due and proper consideration of all portions of this
file deemed relevant to the issues raised, the Report and Recommendation of the Magistrate Judge
is ADOPTED as the opinion of this Court. Accordingly, it is ORDERED that Plaintiffs action
is DISMISSED without prejudice for lack of subject matter jurisdiction.
Final judgment shall issue separately in accordance with this order and Federal Rule of
Civil Procedure 58.
DONE and ORDERED this 18th day of June, 2019.
/s/Terry F. Moorer
TERRY F. MOORER
UNITED STATES DISTRICT JUDGE

Page 1 of 1

Case l:19-cv-00149-TFM-B Document 12 Filed 06/18/19 Page 1 of 1

PagelD#:91

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
EMOGENE R. BROWN,
Plaintiff,
CIVIL ACTION NO. 19-CV-149-TFM-B

vs.
DR. LLYAS SHALKH,
Defendant.

JUDGMENT
In accordance with the order entered on this date adopting the Recommendation of the
Magistrate Judge, it is ORDERED, ADJUDGED, and DECREED that Plaintiffs claims are
hereby DISMISSED without prejudice.
The Clerk of Court is DIRECTED to enter this document on the civil docket as a Final
Judgment pursuant to Rule 58 of the Federal Rules of Civil Procedure
DONE and ORDERED this 17th day of June, 2019.
/s/Terry F. Moorer
TERRY F. MOORER
UNITED STATES DISTRICT JUDGE

Page 1 of 1

Case l:19-cv-00149-TFM-B Document 10 Filed 05/14/19 Page 1 of 8

PagelD #: 82

---- IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
★
★
★
*

EMOGENE R. BROWN,
Plaintiff,
vs.

*

DR. LLYAS SHALKH,

*
★
★
★

Defendant.

CIVIL ACTION NO.19-00149-TFM-B

REPORT AND RECOMMENDATION
Plaintiff Emogene R. Brown, proceeding pro se, initiated this
action on March 26, 2019, by filing a complaint and a motion to
proceed without prepayment of fees.
review,

the Court,

(Docs. 1, 2).

in an order dated April

1,

Upon sua sponte
2019,

informed

Plaintiff that her one-sentence complaint was deficient,

as it

contained no information regarding the nature of Plaintiff's claim
or request for relief,

nor the basis for federal jurisdiction.

(Doc. 4). Therefore, the Court ordered Plaintiff to file an amended
complaint that contained "a short and plain statement" of her
claims as required by Federal Rule of Civil Procedure 8(a) and to
provide the grounds for the Court's jurisdiction.1

(Doc. 4). The

1 The Court informed Brown that her one-sentence complaint was
deficient, as it contained no information regarding the nature of
her claim or request for relief. The complaint also failed to
provide any basis for federal jurisdiction.
(Doc. 4). The Court
expressly advised Brown that in order to establish federal subject
(Continued)

Case l:19-cv-00149-TFM-B Document 10 Filed 05/14/19 Page 2 of 8

PagelD #: 83

Court ordered Plaintiff to file an amended complaint curing- the
noted deficiencies by April 22, 2019, and cautioned her that if
she failed to do so, the Court would recommend dismissal of her
complaint.2

(Id.).

The Court also advised Brown that her motion

to proceed without prepayment of

fees

(Doc.

2)

was

deficient

because it did not include information needed to accurately assess
her ability to pay the statutory filing fee.

Accordingly, Brown

was directed to refile the motion to proceed without prepayment of
fees and to complete the Court's form completely so as to assist
the Court in determining her ability to pay the filing fee.

(Id.).

On April 11, 2019, Brown filed a supplement to her original
complaint, which the Court construed as an amended complaint, but
again Brown failed to assert any basis for the Court's subject
matter jurisdiction over her claims.3

(Doc. 6).

Brown also filed

matter jurisdiction for this action, she must show the existence
of either diversity jurisdiction(pursuant to 28 U.S.C. § 1332) or
federal guestion jurisdiction (pursuant to 28U.S.C. § 1331)(Id.).
The Court ordered Brown to file an amended complaint curing the
noted deficiencies by April 22, 2019, and cautioned her that if
she failed to do so, the Court would recommend dismissal of her
action.
2 The Court expressly advised Brown that, in order to establish
federal subject matter jurisdiction for this action, she must show
the existence of either diversity jurisdiction (pursuant to 28
U.S.C. § 1332) or federal question jurisdiction (pursuant to
(Doc. 4) .
28U.S.C. § 1331) .
3 Plaintiff's amended complaint consisted of the style of the case
and twenty-seven pages of medical records. (Doc. 6) .
Like the
original complaint, it did not contain a short and plain statement
(Continued)
' “
------2

Case l:19-cv-00149-TFM-B Document 10 Filed 05/14/19 Page 3 of 8

PagelD #: 84

a second motion to' proceed without prepayment of fees
however,

it

also

was

deficient

because

it

did

(-Doc. i) ;

not

provide

sufficient information regarding Brown's sources of income and
monthly expenses.

As a result, in an order dated April 12, 2019,

(Doc. 7), the Court again ordered Brown to amend her complaint to
provide a short and plain statement of her claims and the basis
2019.

for the Court's jurisdiction by April 22,

The Court also

denied Brown's motion to proceed without prepayment of fees and
ordered her to re-file the motion and to address her sources of.
income and monthly expenses.

(Id.).

On April 19, 2019, Brown paid the filing fee and, on April
29,

2019,

However,

she

filed

a

second

amended

complaint.

(Doc.

9).

the second amended complaint likewise fails to comply

with the Court's two previous orders to provide the basis for the
Court's

subject

matter

jurisdiction

over

Plaintiff's

claims.4

Accordingly, the undersigned finds that this action is due to be
DISMISSED without prejudice under Federal Rules of Civil Procedure

of the nature of her claims as required by Rule 8(a) of the Federal
Rules of Civil Procedure, nor did it provide any basis for federal
jurisdiction.
4 Plaintiff's second amended complaint consists of the style of the
case naming Gulf Coast Neurology and Dr. Liyas Shaikh as Defendants
and the following three sentences: "On July 3, 2017, at Gulf Coast
Neurology facility: a study was perforated] without my con[s]ent.
I am now suffering with nerve damage and muscle weakness. I'm
asking the court to grant me compensa[tion] for pain and
suffering."
(Doc. 9).
3

Case l:19-cv-00149-TFM-B Document 10 Filed 05/14/19 Page 4 of 8

PagelD#:85

12 (h) (3) -and 41 (b)

I.

DISCUSSION.

"It is .

.

. axiomatic that the inferior federal courts are
Univ. of S. Ala. v. Am. Tobacco

courts of limited jurisdiction."

Co., 168 F.3d 405, 409 (11th Cir. 1999). "They are 'empowered to
hear only those cases within the judicial power of the United
States as defined by Article III of the Constitution,' and which
have been entrusted to them by a jurisdictional grant authorized
by Congress."

Id.

(citations omitted).

"[I]t is well settled

that a federal court is obligated to inquire into subject matter
jurisdiction sua sponte whenever it may be lacking."
"[A]

court

should inquire

into whether

it has

Id. at 410.

subject matter

jurisdiction at the earliest possible stage in the proceedings."
Id.
"When a plaintiff files suit in federal court, she must allege
facts that, if true, show federal subject matter jurisdiction over
her case exists . "

Travaglio v. Am. Exp. Co., 735 F.3d 1266, 1268

(11th Cir. 2013) .
Those allegations, when federal jurisdiction
is invoked based upon diversity, must include
the citizenship of each party, so that the
court is satisfied that no plaintiff is a
citizen of the same state as any defendant.
Triggs v. John Crump Toyota, Inc., 154 F.3d
1284,
1287
(11th
Cir.1998)
("Diversity
jurisdiction requires
complete diversity;
every plaintiff must be diverse from every
defendant.").
Without
such
allegations,
district
courts
are
constitutionally
4

Case l:19-cv-00149-TFM-B Document 10 Filed 05/14/19 Page 5 of 8

PagelD #: 86

obligated -to dismiss- the -action altogether if the plaintiff does not cure the deficiency.
Stanley v. C.I.A., 639 F.2d 1146, 1159 (5th
Cir. Unit B Mar. 1981); see also DiMaio v.
Democratic Nat'l Comm., 520 F.3d 1299, 1303
(11th Cir.2008) ("Where dismissal can be based
on lack of subject matter jurisdiction and
failure to state a claim, the court should
dismiss on only the jurisdictional grounds."
(internal quotation marks omitted)). That is,
if a complaint's factual allegations do not
assure the court it has subject matter
jurisdiction, then the court is without power
to do anything in the case. See Goodman ex
rel. Goodman v. Sipos, 259 F.3d 1327, 1331, n.
6 (11th Cir.2001) ("'[A district] court must
dismiss a case without ever reaching the
merits if it concludes that it has no
j urisdiction. 1 " (quoting Capitol Leasing Co.
V . FDIC, 999 F.2d 188, 191 (7th Cir.1993)));
see also Belleri v. United States, 712 F.3d
543, 547 (11th Cir.2013) ("We may not consider
the merits of [a] complaint unless and until
matter
our
we
are
assured of
subj ect
jurisdiction.").
Travaglio, 735 F.3d at 1268-69.
"In a given case, a federal district court must have at least
one of three types of subject matter jurisdiction: (1) jurisdiction
under

a

specific . statutory

jurisdiction

pursuant

to

28

grant;
U.S.C.

§

(2)
1331;

jurisdiction pursuant to 28 U.S.C. § 1332(a)."

federal
or

(3)

question
diversity

Baltin v. Alaron

Trading Corp., 128 F.3d 1466, 1469 (11th Cir. 1997) .

In this case,

Plaintiff has failed to allege any of the three types of subject
matter jurisdiction.
While pleadings filed by pro se litigants are given liberal
construction,

"we nevertheless have required them to conform to
5

Case l:19-cv-00149-TFM-B Document 10 Filed 05/14/19 Page 6 of 8

Moree v~.

procedural rules."

Wells Fargo Bank,

PagelD#:87

N.A-.,

2017 U.S.

Dist. LEXIS 33112, *2, 2017 WL 1319840, *2 n.l (S.D. Ala. Mar. 6,
2017),

report and recommendation adopted,

Ala. Apr. 4, 2017)

(quoting

n . 2 (11th Cir. 2011) .

2017 WL 1294003

(S.D.

Moton v. Cowart, 631 F.3d 1337, 1341

A plaintiff must "affirmatively allege facts

demonstrating the existence of jurisdiction."

2017 U.S.

Moree,

Dist. LEXIS 33112 at *2 n.l, 2017 WL 1319840 at *2 n.l

(quoting

Taylor, 30 F.3d at 1367; see also Morrison v. Allstate Indem. Co.,
228 F.3d 1255, 1273 (11th Cir. 2000) ("It is the plaintiff's burden
. . to allege with sufficient particularity the facts creating
jurisdiction . .
As stated in the Court's two previous orders, neither Brown's
initial complaint

(Doc.

1) ,

nor any of her amended complaints

(Docs. 6, 9) contain, as they must, "a short and plain statement
of the grounds for the Court's jurisdiction," Fed.
8 (a) (1) ,

R.

Civ.

P.

nor is any basis reasonably apparent from the face of

these pleadings.

In Brown's latest amended complaint, the cause

of action appears to be in the nature of a medical malpractice
claim, which would not provide subject matter jurisdiction under
either a specific statutory grant or federal question jurisdiction
pursuant to 28 U.S.C. § 1331.

Further, in neither the original

complaint nor the two subsequent amendments does Brown properly
assert diversity jurisdiction pursuant to 28 U.S.C.
Under

§

1332(a)(1),

a

district
6

court

has

§ 1332(a).

subject

matter

Case l:19-cv-00149-TFM-B Document 10 Filed 05/14/19 Page 7 of 8 PagelD #: 88

jurisdiction "where the matter in controversy exceeds' the sum or
value of $75,000, exclusive of interest and costs, and is between
citizens

of

different

However,

States."

when

federal

jurisdiction is invoiced based upon diversity, the complaint "must
include

the

citizenship

of each party,

so

that

the

court

is

satisfied that no plaintiff is a citizen of the same state as any
defendant."
In

Travaglio, 735 F.3d at 1268.

neither

the

original

complaint

nor

the

two

amended

complaints does Brown identify the citizenship of the parties or
the

requisite

amount

in

jurisdiction is apparent.

controversy

such

that

diversity

With respect to the citizenship of the

parties, Brown makes no direct comment on this issue but merely
identifies her address as being located in Mobile, Alabama,

and

likewise lists the address of Defendant Dr. Shaikh as being located
in Mobile,
offered

no

Alabama.
facts

on

(Doc.
which

controversy has been met.

1 at 1-2).
to

Additionally,

determine

that

the

she has

amount

in

Because Brown has not alleged facts

that show that federal subject matter jurisdiction over this case
exists, dismissal of this action is mandated by Federal Rule of
Civil Procedure 12 (h) (3) .

See Moree, 2017 U.S. Dist. LEXIS 33112

at *6-7, 2017 WL 1319840 at *3; see also Crotwell v. Hockman-Lewis
Ltd., 734 F.2d 767, 769 (11th Cir. 1984)

(holding that dismissals

for lack of subject matter jurisdiction are without prejudice
because the court has no power to render a judgment on the merits);
7

Case l:19-cv-00149-TFM-B Document 10 Filed 05/14/19 Page 8 of 8

PagelD#:89

accord^Georgia Advocacy Office, Inc, v. Camp, 172 F.-3d 1294, 1299
(11th Cir. 1999) .
II.

CONCLUSION.
For the reasons set forth above, the undersigned RECOMMENDS,

under 28
Procedure

U.S.C.

§

72(b)(1),

636(b) (1) (B)-(C)
that

this

and Federal

action

be

Rule

DISMISSED

of Civil
without

prejudice under Federal Rule of Civil Procedure 12(h)(3) for lack
of subject matter jurisdiction and that final judgment be entered
accordingly under Federal Rule of Civil Procedure 58.
DONE this 14th day of May, 2019.
/s/ SONJA F. BIVINS
UNITED STATES MAGISTRATE JUDGE

8

USCA11 Case: 19-12871

Date Filed: M/22/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-12871-GG

EMOGENE R. BROWN,
Plaintiff - Appellant,
versus
DR. LLYAS SHALKH,
Defendant - Appellee.

Appeal from the United States District Court
for the Southern District of Alabama
BEFORE: WILLIAM PRYOR, Chief Judge, ROSENBAUM and ANDERSON, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by the Appellant is DENIED.

ORD-41

Additional material
from this filing is
available in the
Clerk's Office.

